          HEALTH SERVICE BROKERS

                   A MONOGRAPH




                   Richard P. Kusrow
                   INSPECTOR GENERAL




OEI-Q5-89- 00510                       OCTOBER 1990

                                EXECUTIVE SUMMARY

PURPOSE
This study was conducte to identify mechansms use in the private setor to control medcal
costs which might be suitable for goverment heath car progrs, parcularly Medcar.

SCOPE
The tenn "heath servce broker, " as used in this repo refers to any business that establishes
and monitors provider networks, provides utization magement servces or seurs
discounte medcal servces and supplies. Ths repo provides an overvew of method used
by health service brokers to maage health car costs and utization. Ths study reports on
techniques which brokers employ to ensur their succss in eah     ar  mentioned above.
While this report looked at the overall feasibilty of trsfenig these approaches to
government progr, working out the speifc mehanics wi be left for futue studies.

METHODOLOGY
In-person and telephone intervews were conducte with a pursive sample of brokers
providing utilization maagement,   taete   discount purhasing and netWorkig servces.
Discussions were held with the Health Ca Financig Admstrtion (HCFA), acadmicias,
representatives of professional organzations, corportions and expert in ths field. A tota of
51 intervews were conducte.

FINDINGS
           Effective provider networks control network membership, regularly assess
           utiization of servces and remove servce intensive providers.

           A varety of approaches coupled with   stadadize deision trs       and   other
           innovations ensur the success of utiization review.

           Targeting speifc goo and servces for bul      purchase   at different levels in the
           distrbution chain can produce savigs and   mata patient access.
           Individual case management could improve qualty    of car,   incras efficiency and
           mae better use of benefits for chrnically or tealy il patients.
CONCLUSION
Many private sector mechanisms for contrllng health car costs appear to have potential for
Medcar, Medcaid and other DHHS progrs including those adnistere by the Public
Health Service. Each component should study the mechanisms used by the private setor to
determne whether any can or should be adpted to their progrs.
.........................                                                                    . .. . . . .. .. . .. .. . .. .. .. .. ..................... ... ... .. .. .............. ......
                                                                 . .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... ...................
                             . . . . . . . . . . . . . . . .. .. .                                                                       .....
                                                                                                                                             ....      . .........................
                                                                                                                                                . ... ..                         ....  ..................... .. ..
                                                                                                                                                                                   .....                         ....
                                                                                                                                                                                                                   ..




                                                                    TABLE OF CONTENTS
      EXECUTIVE SUMMARY

      INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

             PURPOSE. . . . . . . . .
             BACKGROUND                                                                                                                                             . . . . . . . e.



             SCOPE
             METHODOLOGY. . . . . . .'. . . . . . . . . . . . . . . . . . . . . . . . . . . . .

      CHAPTER 1: Provider NetworKS. . . . .

             Effective provider networks control membership, regularly
             assess utilzation of services, and remove service Intensive
             providers
                         Employers as purchasers of comprehensive health
                         services                                                                                                                                . . . . . . . . . . . D . . ..

                         The HCFA as purchaser of comprehensive health services.

      CHAPTER 2: Utilzation Review.. . . .

             Brokers, employers and organizations favor a combination
             of utilzation review (UR) techniques for an effective UR
             program                                                  8 . . . . . . . . . . . . ..
                                              . . . . . 8.


                         Employers as reviewers of health services.
                         The HCFA as reviewer of health services.

      CHAPTER 3: Targeted Purchasing                                                                                                                                                                       .. 15


             Targeted purchasing In the private sector has developed
             beyond the purchase of prescription medicines and
             durable medical                      equipment.. .                                                                                                                                            .. 15
                         Employers as purchasers of targeted medical services
                         and supplies
                         The HCFA                  as     purchaser of targeted medical services and
                         supplies.




      CHAPTER 4: Individual Case Management (ICM) ......................... 18


             Brokers believe ICM Improves quality of care, Increases
             efficiency and makes better use of benefits for patients
             with catastrophic or terminal diagnoses or with chronic
             conditions. .................................................... 18

                         Private Sector Individual case management
                         The HCFA as Individual case manager
                . . . . . . . . . . . . . . . . . . . ...                                                                ..
                                                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..




CONCLUSION                                                                             . . . . . . . . . II . . . . . . . 


BIBLIOGRAPHY.
                                    INTRODUCTION


PURPOSE
This study was conducted to identify mechanisms used in the private sector to control medical
costs which might be suitable for government health care progrs, parcularly Medcar.

BACKGROUND
In 1965, health care costs accounted for 6 percent of the gross national product (GNP).
Accordig to a recent repon issued by the Commerce Deparent, health spending in 1990
wil approach $661 bilion and account for 11. 5 percent of the GNP. The Commerce
Deparent also projects that spending on health car in the United States will rise 10­
percent annually through 1995.

The escalating cost of health car has led third par payers     employers, insurrs and the
government      to seek new methods to curb these rising costs. In 1983, Medcare
implemented the prospective payment system (PPS) to adess Par A inpatient costs.
Following the adoption of PPS, Medcare undenok a number of policies intended to generate
savings for ambulatory car services. These policy actions include a physician- fee frze,
reductions in payments for overpriced procedurs, balance billing reform and incentives to
encourage physicians to accept assignment. Despite Medcar s effons to contrl health car
costs, expenditurs continue to grow.

As Medicar purued cost contanment measures, health car providers responded by shifting
more of their costs to private sector third par payers. Prvate sector health car costs soard,
and employers became disenchante with trtional health car payment mechanisms and
their inabilty to reduce costs and control utization. Increasing numbers of employers
assumed control of their employees ' health plans and became self- insured. The more
employers became involved with their health car plans, the more they realize that they
lacked the expenise neeed to control costs and utization. New businesses specialzig in
health car cost contanment moved in to fil ths vacuum.

To compete with the new companies offering specialze cost contanment servces, health
maintenance organizations(HOs) and traditional health insurers " unbundled" segments of
their existing business and began marketig the individual specialze services to employers.
An employer might contrct for admistrative services from one company, provider networks
from a second and utilization management services frm a third. This unbundling or
 boutiquing" of individual health care cost contament services spawned the health servces
broker industr.



The essence of the philosophy of health service brokers is a flexible pragmatism and a
willngness to tr innovative approaches to managing progr costs and utiization , while
maintaning quality of care and ensuring access to needed services.
Health servce brokers rage from large national corpations to individuals providing
services locally, and represent a wide varety of philosophies and approaches to controlling
health car costs and securng health car servces. Some of the health servce brokers we
contate for this repo provide a single heath relate servce, while others provide
multiple heath services which they boutique or sell as customize packages to employers,
thir par payers and others, including other heath servce brokers. Health servces brokers
attempt to contrl their clients ' health car expenses in a varety of ways. Ths report focuses
on four speific aras where brokers clai to achieve savigs and control costs by:


               establishing networks of doctor, hospitas and other health car spialties
               whose car is demed to be cost-effcient, medcaly competent and appropriate;

               combining a varety of utiization review (U) tehniques to educate health
               care providers concerning unnecessar, excessive and inappropriate procedurs;


               prices; and,
               tageting certn   medcal supplies and seces     for purhase at discounte


               providing individual cas maagement (lCM) for some patients.


SCOPE
The tenn " heath service broker," as used in this repo refers to any business that establishes
and monitors provider networks, provides utiization maagement servces or seurs
discounted medcal servces and supplies. This report provides an overvew of method used
by health service brokers to maage health car costs and utilization. Th study report on
tehniques which brokers- employ to ensur their succss in each area mentioned above.
Whle this report looked at the overa feasibilty of trsferrg these approaches to
government progr, workig out. the spific mehanics wi be left for futu studies.

The Offce of Inspetor General (DIG), Ofce of Evaluation and Insptions (DEI) plans to
conduct more detaled insptions on some speifc approaches use by health serce
brokers. There ar curntly    studies in the DIG workplan focusing on private setor   utilition
review, seond surgical opinion and Medcaid cas management

METHODOLOGY
In-person and telephone intervews were conducte with a pursive sample of brokers
providing utilization maagement, taeted discount purhasing and networkig servces.
Discussions were held with the Health Cae Financing Admnistrtion (HCFA), acadmicias,
representatives of professional organizations, corprations and experts in ths field. A tota of
51 interviews were conducted.
 We asked the peple we    contate durng ths study how they control health car       expenses,
 and to identify medcal   prours and other servs which they found to be goo candidates
for cost contrl effort. We also asked them to provide an estimate of savings they achieved
from their method.

Savings repone by broker and by clients vared dependig on the combination of servces
provided and the aggrssiveness of the brker and client in applying these approaches. We
did not attmpt to validate estites of savings, and therefore did not include them in this
report.

Qualitative analysis of the intervews was used to identi method which might be suitable
for addtional indepth researh to determe the feaibilty of transfenig the approach to
government setor health progr. We expet that more detaled studies wi offer a more
comprehensive analysis and statement of potential savings which can be derived from
adopting health service broker tehniques.

In adtion to collecting service intensity and payment data relate to specific proedures,
DEI's Statistical Analysis Grup (SAG) develope a methodlogy and obtaned HCFA data to
detennne whether HCFA had the capabilty        to distiguish   cost-effective providers frm
 outlier" providers who bil for substatily mor seces than their pers. Th analysis was
refined by examing the data bas on physician spialty and by including data on patient
hospitaiztions as a measur of severity of iless.

In the developmenta stage of ths   study,   we taed to acadmicias and business peple
knowledgeable in employee health benefits, as well as some health servce brokers. Based on
these exploratory dicussions, we identified two broad aras where health servce brokers and
employers have concentrate    their effort in an attmpt to contrl rising health car costs:

             provider networks which provide a comprehensive rage of servces at a
             discount to their clients, and

             utilization review tehniques which assur that appropriate car      has ben
             rendere in appropriate settgs.

We also discovere that many brokers and employers had refined these tehniques and         applied
them to speifcaly identified servces and patients though tagete purhasing and
individual cas management.

This report reflects what we leared frm brokers and employers who purhase their servces.
The report is divided into four chapters: provider networks, utiization review tehniques,
tagete purhasing and individual cas maagement.. In each of these four chapters we
examne what the private sector is doing and have attmpte to identi litations and
obstacles to implementation of these concepts and key elements necessar for success.
                          CHAPTER 1: Provider Networks


Effective provider networks control membership, regularly assess utilzation               of
services, and remove service intensive providers.
Employers as Purchaers of Comprehensive Health Serves

As employers beam self- insur and took over contrl of their health benefit plans, they
beame awar of the trmendous power they hold as purhasrs of health car servces. They
reasoned that they could apply the sam prudent buyer priciples they used in their business
operations to the purchas of health services. Using heath service brokers, they exercised
their purhasing power to establish provider networks.

Provider networks operate on the principle of channeling a prectable patient load to
physicians and suppliers who pratice medcine effciently. In exchange for an incrased
patient load, physicias and other providers of medcal car and supplies agr to discount the
fees they chare for their servces. Twenty-one health servce brokers intervewed for ths
report ar involved in establishig networks to prvide health car servces for their clients.
The networks encompass prefeIT provider organzations (PPOs), HMOs, independent
practice associations (!As) and exclusive provider orantions     (Es).
      Health service brokers contol membershi by screening canddates for their networks;
      all request malpractice and disciplinary informtion from candidates.
Crteria used by health servce brokers in selectig providers for their networks var
considerably depending on local conditions. Al the brokers we spoke with reueste
information concerning mapratice clais or discipliar actions from candidates. By
checking for any evidence of mapractice or disciplinar actions, brokers feel they can exclude
frm their networks providers whose qualty of car may be questionable.
Prviders reueste to join networks must agr to discount the price of their servces in
retu for a potential incras in their patient case load Institutional providers, such as
hospitas and nuring homes, ar usualy reimbur on a per diem basis. Individual
practitioners, such as physicians, ar usually paid using fee schedules. The amount of
payment a provider parcipating in a network can expet to reive is documente in a
contrt which   is periodcaly renegotite

Patients ar encourged to use the network providers though incentives such as lower
deuctibles and copayments, and discourged from using " out of network" providers by
higher out of pocket expenses. In an EP, patients pay al of the medcal expenses they incur
outside of the network.

Most brokers feel that negotiatig   discounts on feesalone wi not produce suffcient savings
unless utiization contrls ar also built into the provider contrt. A potential exists for
providers in networks to offset discounts for servces by incrasing the number or intensity of
services they provide to patients. Five brkers said that the networks they established had
faied to prouce anticipate savings beause discounts were offset by increased services.
Accordig to one broker, service intensive providers ar often those most wiling to give the
greatest discounts beause they know that they will mae up the difference by increasing their
volume of servces.

Some HMO failurs,     and the inabilty ofsome networks to produce    re  dollar savings, were
attrbuted by some to a network' s failur either to exclude service intensive providers or to
contrl their intensity of servce. Whle aberrt providers of this sort may be a sma
percentage, they can erod or negate any savings expete from the network. Six brokers said
that buildig a goo utiization review prgram to complement the discounte pricing is the
key to adssing this problem.

Seven brokers identiy potential candidates for their networks by analyzing relevant claims
data to determe utiization pattrns. They use this infonnation and provider background
infonnation to detennne whether a physician is a suitable candidate for their network. For
institutional providers, they look at the range of seces offere cost report, utization data
occupancy rates, stag      ratios, etc. These brokers ar confdent that these measurs enable
them to scrn out providers with less than perfect crntials, as well as those providers with
aberrt utiliztion patterns.
      Some brokers build utilization controls into their contacts with providers. Many more
      use claims data analysis to evaluae provider utlizatin before renegotiating the
      provider contract.
Seven networks requir that their members agr to submit- to the network' s pratice protocols
and utilization review mechanisms. These agrments ar viewed by brokers, as an effective
means to contrl utiiztion, ensur qualty of patient car and reuce malpratice rik.
Prtice protocols are usually based on accepte     stada     of medcal pratice, researh on
effectiveness, consultation with expert and consensus of the network mem rs. Post
payment analysis is often use as the basis of review pror to renewal of individual member
contrts. One employer and     thn      brokers said they use clai  data either in valdatig
curnt contract compliance or to renegotiate contrts at renewal tie. Brokers using
practice protocols ensur compliance by periodcally analyzig individual member pratice
pattrns.

Clearly, access to and analysis of claims data is crtical to the success of a network, whether
use in selecting potenti providers, or monitoring their behavior afr inclusion in the
network. Any network that has the means to identi and wee out servce- intensive providers
before inclusion in the network, and monitor utization with the network, is well ahead of
the game.
 The HCFA as Purchaer of Comprehensive Heal Serves
      Although beneficiary freedom of choice is protected by law, HCF A is exerimenting
      with demonstration projects to evaluae thefeasibility of using provider networksfor
      Medicare.
The HCFA has reently undenaen five PPO demonstrtion projects to evaluate the feasibilty
of using networks in the Medcar progr. The objectives of these demonstrtion projects
are to test the feasibilty of this fonn of servce delivery, to determne its attactiveness to
beneficiares and to assess its effectiveness in controllng the volume of services biled to
Medcar.
Four PPO projects under study ar    enrollment modls; the fifth is a non-enrllment modl.
Enrllment moels reuir that beneficiares elect to parcipate. Beneficiares must use
network providers or pay a grater shar of their health car bil. In the non-enrllment
project, beneficiares do not elect to parcipate in the PPO network but ar enrlled
temporay whenever they use the servces of a provider in the PPO network. Unlike the
enrollment modls, the patient pays no penalty for using a non-network provider.

While HCFA has the authority to conduct demonstrtion projects to   detee the feasibilty
of using networks to provide comprehensive heath servces, widespread implementation
appear to be prohibite by curnt Medcar law, which guartes beneficiares tTom
choice in selection of medcal providers. Accordig to HCFA, the law prohibits Medcare
from stering patients to selecte providers. The HCFA alSO feels that curnt reimbursement
mechanisms preclude negotiating with providers for dicounts. In HCFA' s view, these
constraits severely limt their abilty to experiment in ths area.
      The HCF A ha the capabilty of identifing   service intensive providers through analysis
      of its own Medicare daa bases.
To determe whether HCFA data could be use to       scn
                                                    provirs for a network, we
analyze HCFA' s Pan B Medcar Annual Data (BMA) files and hospi adsion fies
for 1987 to see if we could simulate the reviews ofcla
                                                    data that brokers perform when
evaluatig potential physicians for their networks. Using the 1987 BMA data we aggrgated
the servces each beneficiar had reeived to the physician who lat saw the patient. We
assume that the physician last sen by the patient operate as gatekeeper and was respnsible
for ordrig the services that followed Once we aggrgate services, we aryed the
providers accordng to servce intensity. Figu 1 indicates the results of our analysis.
shows that 91 percent of physicians who biled Medcar in 1987 provide on average, 20 or
fewer medcal servces to their patients. We assumed that physicians billig more than 20
services were outliers and may not be goo candidates for a network beause of their service
intensity.
                                             FIGURE 1
                                 Provider Service Intensity
                                 (% = number of providers)


                      LESS
                     Services
                                      91%



                                                                      MORE
                                                                     Services


      Based on a one percent sample of the 1987 BMAD files


If Medcar had the                               s choice of physician, patients who chose an
                      abilty to influence a patient
outlier physician would have to bear a grter shar of the medcal costs though incrased
coinsurce and other incentives. Whle our assumptions may bias which physicians
identied similar aIYs of data could be done using dierent assumptions.
We found that neither severity of ilness (measur by hospitations) nor speialty
accounte for the intensity of servces some physicis provide. In the past, physicians
providing intensive services to their patients have argued that their patients ar sicker and
therefore reuir more medcal servces. Oter physicis argued that their pratice
speialization accounte for the intensive servces their patients reived We analyze the
fruency of services provide to beneficiares who were hospitaze in 1987. We also
analyze the intensity of servces by physician speialty. Physicians who were outlers in our
initial analysis were also outliers in their speialty. Patients of outlier physicians did not have
a grater incidence of hospitazation than their more conseative counterpar.

While this method of analysis enables tagetig of individual physicians, geogrphical
location and other factors should be taen into consideration before excludig a parular
provider frm a network or penalg Medcar patients for using them. The purse of our
ilustration is to demonstrte that HCFA has data which could enable them to identi servce
intensive physicians whose parcipation in a network might be undesirble.
      Issues for further   stu
Studies should be considered on the tys       of legislative changes that would be nee
pennt the establishment of provider networks. Other studies should exame the         ty
network that w uld be neeed to meet patient nee. Is it bettr to have national, regional or
local networks? Should they include the full spectrm of medcal providers, or only
care physicians? Should government piggyback on alady established private seCtor
                                                                                        pri
progrs, or contrl their own networks? Do providers who agr to the largest discounts use
more services to offset their discounts?
Regardless of the answers found to these questions, successful networks include the following
items:

             a means of identifyng and excluding servce intensive providers;

             a method of incorpting      prtice guidelines into provider contrcts;

             a means of collecting   stadaze data to monitor network utization and
             efficiency;

             a method for analyzing data to determe network financial condition and
             individual perfonnce with the networ; and

             a means of influencing patient choice of provide.
                          CHAPTER 2: Utilzation Review

Brokers, employers and organizations favor a combination of utilzation review
(UR) techniques for an effective UR program.
Employers as Reviwers of Hell Serves

Utilization review (U) is a tenn that covers a broadsptr      of tehnques use
individually or in combination, to exame the use and intensity of servces rendere to a
patient. Such tehniques include, but ar not  lite    to, prosptive review, concunnt
review, retrosptive review and second surgica opinon (SSQ). In the last dead, the use of
UR cost contanment strtegies has   incr signcantly.
The Health Insurance Association of America estiates that about half of all U. S. businesses
are using some fonn of UR. These businesses and health servce brokers believe that
contrllng the use and intensity of servces provide to patients is crtical to contrllng rising
health car expenditus. Of the 37 health car brker we intervewed 32 offere utization
review or utiization maagement servCes. Ony one broker did strctly retrosptive review
and severa did strctly prosptive reviews. The vast majority employed a combination of
strategies.

The scope and focus of UR vares by employer and by broker. Some approaches review
servces rendere The more common approach tagets speifc
providers or high doll servces for review.
                                                               prurs,  diagnoses,


The infonnation resulting frm UR is use by brokers for may purses:

             to identify potential members for inclusion in networks;

             to monitor networ provide compliance with agr-upon          prtice gudelies;
             to make coverage determnations or paymnt deisions;

             to identify medicaly unnecessar or excessive   servces;


             to preclude cert the kinds of servces which have ben demonstrte by
             medcal evidence to be ineffective; and,

             to identify patients for individual case maagement (lCM).

Many brokers and employers use UR services to educate patients about probable outcomes
from using certn services and tr-offs associate with using alternate servces. Utition
review can result not only in less expensive car, but also in improved qualty of car.
        Prospective review can reduce the nwner of costly invasive procedures.
Prspective review is used to ensur a
course of treatment which is appropriate,
cost effective and of high qualty.
Prospective review is not applied to
episodes of emergency treatment. The
people with whom we spoke generaly
agreed that prospective review has the
greatest impact on contrllng health
costs, because it can result in the use of a
less costly tratment or procedur, the
use of a less costly settng or the
postponement of a proedure unti
alternative medical tratments have ben
tred.

Table 1 lits 21 of the. 57 specifc items
which brokers mentioned as suitable for
prospective review. Table 1 contans
only those items with Medcar
expenditurs exceeng $15 mion
annually. While the servces identified in
Table 1 ar based on broker experience
with prospective review, many have a
considerable body of medical research
questioning the abilty of the servce(s) to
improve a patient s quality of life. For
example, in research conducte by the
Rand Corporation on physician behavior
for the National Institutes of Health
Consensus Development Progr,
coronar arery bypass surgery was
found to be unjustied for 14 percent of their
sample, and " equivocal" for another 30 percent
        Conqurrent review can identif potential cases for ICM.
Concurnt review occurs during the coure of a patient s tratment and reuirs that approved
admssions be recertfied at specific intervals. Virally al the brokers involved in prospective
review also conduct conCUITent reviews     which are priary used to monitor hospital
admssions and other institutional car.     Most brokers conduct concurent reviews over the
telephone; some conduct on-site reviews. . Many brokers conductig    conCUITent care reviews
use software   progrs to minimze reviewer subjectivity and to ensure consistency in the
decision process.

The goal of concurnt review is to prvent the use of unnecssar or inappropriate services;
thereby reucing costs. Continued stay review determes whether        fuer hospitaization is
necessar, identifies other trtment options and evaluates potential discharge planing nee.
Concurnt review also plays an
ICM.
                                   imt   pan in identiyig cass that might be suitable for


         Retrospective review can idntif providrs with   abe"ant utlization an procedures
         vulnerable to manipulaton.
Retrospetive review is a multi-facte approh to UR which ocur after the patient
tratment has ben prvide It is used by heath         sece
                                                   brokers to        idnti:
                                                                     1) potential
providers for network; 2) provide who exce          agr    upon tratment   norm; 3) servce
intensive providers; and 4) patients for ICM

Retrospetive review is also use to document for the employer or insurr that the goos and
services they paid for were actually reived by the patient. It assesses the abilty of systems
alady in place, such as prospetive review, to ensur the medcal appropriateness of
servces. It is also use to identiy speifc servces which have a high lielihoo of havig
ben upcod frgmnte or otherse mapulate to                  incr  reimburment. Data frm
retrosptive reviews is alo use by brokers to renegotite ras and contrts with prviders
in their networks.
         Brokers feel all UR program benefit from use of standdized softare program
         which provide more consistent criteria for evaluation.
A number of brokers have purhased softwar      progr designed to provide mor consistent
means for detennning whether cert medcal        procurs ar warte These softare
progrs employ clinically documente          stada of car which enable their users to
detennne whether a propose medcal         prour is necssar and approprte. The softwar
not only promotes mor consistency in the deision procss, but alo douments the crteria
for deni or approval of a medcal prour. If the computer assiste review indicates that a
propose     prour  is of questionable value, a seond opinon may be scheduled and/or a
medcal consultat may discuss the propose
deiding whether to approve the  procur.
                                                prur   with the attndig physician befor


Second surgical opinon     (SSO) is a UR mechansm that some brokers feel benefits from the
use of   stadaze softwar. While most brokers felt that SSO was not a very cost effective
UR tehnque, others disagr and claied signcant SSO savings. Those broker who
claime success with SSO, use SSO only in selecte cass. Some brokers selecte
procedurs which researh has shown to be most liely to be inappropritely used Others
selecte candidates suitable for SSO by using their    stada    prior authorization softar.
Those brokers who felt that SSO was not a very cost effective UR tehnique cite extrmely
high SSO confmnation rates as the ma reason for SSO program faiur. Ths may be due to
the blanet approach often use rather than the more focused approach use by those who
have had more success. Brokers claiming SSO success also speified who would conduct the
SSO consultation. They felt that ditig     patents to select providers
of interest and resulte in a more objective SSO.
                                                                         mize    any conflct


      Obstacles to effective UR are resistane   by providers and amivalence by
      employers/payers regarding enforcement ofUR decisions.
Durg the cour of our intervews, we      as      what the major obstales to cost/utization
management were at this time. Ten brokers told us that ther was prvide resistace to the
system, a lak of physician coopetion, and a nee for employers and insur to enforc their
DR deisions. When questioned about what changes wer        nee    to overcome these

and establish workig relationships that de advers
obstales, twelve brokers observed that ther is a nee to wor mo closely with providers
                                                            situations.

One way to  adss    these obstales may be though use of clical pratice protools or
guidelines. The development of pratice guidelines is viewed by some brokers and expert      as
the key to improvig the qualty of car provide to patients as well as contrllg use.
Brokers that have develope their own stada      of pratice   cla that most physicis
respond well to them and that changes in physician behavior do occur. Physicias who
repeatey fail to abide by cliical prce    gudelies ar removed from the network.
The HCFA lI Reviwer of Healh Serves

In comparson to the private setor, Medca s apprach to UR        priy
                                                                  has ben
retrosptive reviews. In reent year, HCFA has undenaen severa projects designed to
                                                                                   lite
broadn their approach to UR.
      The HCF A' s fiscal agents hae developed alternative review program for their private
      business, but hae no incentve to use themfor Medicare.

May of HCFA' s contractors have purchas or develope alternative UR progrs simar
those offere by brokers for use in their prvate business. Several have purha UR
deision softar for use in their private business. These contrto raly extend to their
Medcar business the UR    progr      they have develope or purhas for their private
business, beause there ar no incentives for them to do so. Softar which has ben
purchas or develope by HCFA' s fiscal agents is not use for Medcar clai 1iause the
authority for mag deisions concerning the appropriateness of medcal car and procurs
liesprily     with Peer Review Organizations (PROs).
      HCF A' s PROs prospectively review a few surgical procedues, but muh is left to each
      PRO' s dicretion.
The HCFA curntly reuirs PROs to prospetively review a select number of proedurs
includig coronar arry bypass and     catat   surgeries. The PROs have the option of
selecting which procedurs they will prospetively review. Each PRO has ben left to develop
its own crteria for use in assessing the mecal necessity of the procedurs it has selecte for
prospective review.
The HCFA would lie to move towar computerization of the prior authorization process.
However, their plans do not call for the establishment of a national system using a uniform
decision tree for all PROs. The system HCFA envisions would allow each PRO to establish
its own system. Accordig to HCFA, the statute which pennts prior authorization of cena
Medicare services does not contemplate national stadads for PRO decisions. But the statute
does not preclude the use of nationalstada       either. Failur to adopt a national uniform
approach with documented stadads for allowing or disalowing a parcular proedure may
leave Medicare s prospective review program vulnerable to inconsistent decisions.
      The Medicare program conducts concurent review on certain Part A services, but
      without computer assisted guidelines.
Medicare conducts "concUIent" reviews on some skilled nuring home stays, rehabiltation
services, home health visits and other Par A servces as par of their claims processing.
Informtion, in the form of treatment plans and, in some cases, physician certfication as to the
need for continued care, is provided on the claims submitted by providers. Decisions on
whether to continue coverage of a benefit, and for how long, is detennned by examning me
infonnation submitted along. with the clais. The Medcar proess can be descnbed as less
aggressive compared to some private sector approaches which ar conducte on site or over
the telephone, and less "objective" compar to the use of computer assisted guidelies used
by brokers to reuce the subjectivity of UR deisions.
      The HCF A is exerimenting with alternative approaches to retrospective review.
The HCFA is cUIently sponsoring some demonstration projects involvig retrspective
review. In one project, a health servce broker has been subcontracted to conduct utilization
reviews. The purpose of this project is to detennne if the use of private sector contrctors
would improve Medicar DR effons. This project has generated some complaits from the
provider community but appears not to have had an effect on patient satisfaction with the
Medicare Program. The savings from the use of an independent UR firm appear to be
significant. In another demonstrtion project, a Medcar caner has ben developing screens
which will enable them to match diagnosis with tratment. Early res lts indicate the scrns
have been successful in identifyig aberrant practices where the car and servces given to a
patient ar not indicated given the diagnosis.

These experiments indicate a recognition on the par of HCFA that its curnt UR activities are
not yielding the expected results in terms of cost avoidace and savings. Some people with
whom we spoke felt that HCFA has permtted their contractors too much latitude in their ap­
proaches to UR and that many of HCFA' s contractors did not effectively use their UR data: to
corrct problems in the Medicar system. One broker we spoke to felt that there may be a con­
flct of interest on the par of caners, and a reluctance by PROs to challenge peers, when it
comes to dealing with utiization issues.
     Issues/or fuher stud
Studies should be conducte to  detee     the effecveness of UR activities alady in plac
government progr. New apprhes to UR should be explore Would national
stadadi      softwar f tate a more consistent apprh to desion-        mag?     Should
independent subcontrto be use for UR activities? Should Meca s fIScal contrtors,
many of whom own pror authortion softar,         scn    cass so that only unrsolved cass
ar forwarde to the PRO? Should SSO be perfor by a designate group of independent
subcontrto, rather than left to a physician of the patient s choice?
Whatever tehniques, or combination of tehniques, ar use an effective UR      prgr should:
            provide a review   tr   so that the proess can be duplicated by an independent
            thir par;
            provide some method for doumentig the procss and assurng consistent,
            unifonn decisions; and

            prouce reliable, unifonn data to assess individual contrctor performce, and
            to accurtely   trk cost savigs and effectiveness.
                                                           ...........
                                                           ...:::.
                                                          ...        ::::
                                                                     .......
                                                                 ......
                                                          .........
                                                             ........
                                                          .........
                                                                ... ....
                                                                    .::.
                                                          ...........   '"... ........,..
                                                                             ...
                                                              .................
                                                          ..............
                                                                ................ ......  ..'". ....
                                                                                           "'
                                                                                 ...........
                                                                         .. ......       .....
                                                                                        ........
                                                                                    ;;:.......
                                                                                       :::.       ... ......
                                                                                                 ...
                                                                                           . ......
                                                                                        ..........
                                                                                              ~~~~~~
                                                                                          ...... .....
                                                                                                ......,
                                                                                    """'"''''''''''''''''
                                                                                             . ................
                                                                                   """"""""'......
                                                                                    ............................
                                                                           ..............
                                                                           .........            ..............
                                                                             .............................
                                                              ...................        ,.."........
                                                                                          . .............
                                                                                                       ........
                                                                                                   ...........
                                                                                                     .......
                                                                                                     ........
                                                                                                    ....
                                                                                            ::::::::.
                                                                                        ....,......   ....
                                                                                                    :::::::::
                                                                                                    :;;
                                                                                       ......................     ~~~
                                                                                                               .....
                                                                                                                 ....
                                                                                                           .......".
                                                                                                     .......,-,.....
                                                                                                               ,!.      ''''
                                                                                                                    ,....
                                                                                                                  :..
                                                                                                                 ...,....
                                                                                                         .........                .~~~
                                                                                                                              """"--""  .. .
                                                                                                                                        ... ...::.""""'"
                                                                                                                                 ............   ..::.
                                                                                                                                          ...............
                                                                                                                     .......................
                                                                                                                    ...    ................
                                                                                                                             ...........
                                                                                                                    ...............
                                                                                                                        ".........         .........            ..
                                                                                                                          ........................................
                                                                                                                 ..............................
                                                                                                                         ......,,-,...
                                                                                                                          .... ....      .......
                                                                                                                           .............,-
                                                                                                                      :::::::.  :;;;            ...........
                                                                                                                                            .......
                                                                                                                                                  ......
                                                                                                                                                   .....
                                                                                                                                                    .........
                                                                                                                                                      ....-....
                                                                                                                                                     ........    ..:....
                                                                                                                                                            .......
                                                                                                                                                           :;:::.:       ::))
                                                                                                                                                                       ~~~~~
                                                                                                                                                                          ""..,
                                                                                                                                                                           ....
                                                                                                                                                                     ...........
                                                                                                                                                                               ...
                                                                                                                                                                          .....,
                                                                                                                                                                        ....
                                                                                                                                                                           " "',
                                                                                                                                                                     ):::::::::::
                                                                                                                                                                    :::::     ;:.      :?:
                                                                                                                                                                                      ......
                                                                                                                                                                                          .....
                                                                                                                                                                                        ..:::/::..

                                                                                                                                                                                ..:::.......
                                                                                                                                                           ............................
                                                                                                                                     . .........................                       ....
                                                                                                                                                                    ......................   ....... .....       ::/

                                                                                                                                                                                                 .......................
                                                                                                                                                                                                                    ........
                                                                                                                                                                                                           ..........
                                                                                                                                                                                                      :::....      ......
                                                                                                                                                                                      ..................................
                                                                                                                                                                                     ...",-
                                                                                                                                                                                       ....
                                                                                                                                                                                      :::    ....
                                                                                                                                                                                                ............
                                                                                                                                                                                                     :::(:.
                                                                                                                                                                                                          :::.     .~~~
                                                                                                                                                                                                             ::.::::.
                                                                                                                                                                                                                  :::::: ..      ........
                                                                                                                                                                                                                           ........
                                                                                                                                                                                                                              ..........
                                                                                                                                                                                                                     .. ........
                                                                                                                                                                                                                         ......
                                                                                                                                                                                                                           ....          ..!!:
                                                                                                                                                                                                                                  ... . ....
                                                                                                                                                                                                                               ...........




                                  CHAPTR 3:                  eted                        Purchasin
 Targeted purchasing in the private sector has developed beyond the purchase
 of prescription medicines and durable medical equipment.
Employers as Purchasers              of Tareted   Medical Servces and Supplies


Volume discounts, " bulk" purchasing and competitive biddg for supplies and servces
varations of the purhasing principle used by health service brokers to establish networks. As
with networks, volume discounts ar negotiate for specifc medcal goos and services in
retu for diting patients to contract providers.
         Targeted purchaing now includes a wide variety of costly medical services, such as
         coronary artery bypass grafts (CABG), intraocular lens implants, home intravenous
         therapy and diagnostic imaging.
While the concept of securng certain medcal items and goos at discount is not new, many of
the medical supplies and services being purued by brokers are innovative. These tageted
discounts ar frequently negotiate for very specifc servces or episodes of treatment. Thus
they differ frm          independent of, the discounts derived from a comprehensive network
                          , and

of providers. The brokers we spoke with believe this ara has developed beyond the purchase
of medcal supplies, equipment and drgs to include a wide varety of costly medcal and
surgical services.



Eighteen of the health service brokers                                                   n..."...                                  ........ ""0 .

we spoke with are involved in tageted
                                                                                                                                   :tt                            :J::
purchasing. Table 2 lists some of the
items they believe can be tageted for                        :$(m.)tQflj'                                            erilfl                                                                            :$ijij
purchase at a discount. The services                                                                              :OC

listed in Table 2 are high cost servces
mentioned by more than one broker.                        li!iili
                                                                                                                                     il::........... ""..0......
Cert    surgical proedurs, such
                                                                                                          i:;;;ii.
                                                                                                                                                            :::t .....................

                                                                                                                                                                  ::::::i:         ::::::i:::::::

coronar arery bypass and catact                                     ::i::          :i.   :gHr                        i::M                        1:.       9yjpm                     nli:. ii:                   :i.i:::i. iii. i::.


surgery, also were mentioned as items                     !!I:I:il!iiii1jlll!!!llillil:il!!;

suitable for tageted purchase. These and                                                                       j!I                  Milllilllli!111                                                                       illjll!llil!llilll


other surgical proedurs were not
shown in Table 2 because HCFA has
                                                          lilll!ii(lil!ii!i:llllllijill:j!i;ilt611                                                     illl r,!i!!                                                       li:::i!jil!iill!ijj

recogniz that alternative procurment                                        ;tt::::.      8rtff                  ?Br9 jhi!iB.                                          Y19!:                ::U::.


and reimburement methods are suitable                                       ll:::                             ijp Bm.
                                                                                                                               iY!.
for some high cost surgical proedures.                                                   ::ff:

                                                                                          ff.                        19ry.
                                                                                                  ,II                              JQg
Equally as imaginative as the items and
procedures being targeted by brokers for
discount purchase ar the unconventional
applications of the methods being used to
seur them.    Negotiate package   rates with "cente of excellence" (hospitas, ambulatory
                                           spc
surgical centers and certn physician offces for    surcal procurs) can, acording
to brokers and others we inteewed imrove the qualty of patient    prouce savigs.
                                                                    car and


                           maufactu and wholesalers raer than reta providers
another promising     ar
Discounts negotiate with
                         One broker negotiats rebates frm phanutical maufactus
and does not attempt to secur dicounts frm dispnser. Patients purhas their
prescptions wherever they choose. Billng for reimburment also remas unchanged The
patient s insurr reord the quantity and amunt pai for eah drg and periodcaly noties
the drg maufactur of eah drg quatity reimbur The maufactur repays the broker
a pre-negotiate amounL Ths approah appe to be the leat intrsive and leat disrptive
method for seurg drgs at discount. Whe used        priy     for prescption drgs, it appears
that this method may alo have possible application to other ar   such as durble medcal
equipment and parntera and entera    feengs.
One employer, with plants in four communities acoss the countr, uses a ma-oder
phany for prescptions, contrts for discounte durble medcal equipment, has a
single-sour   contrt for   mamm   ogr and is   explorig the comptitive bid approach    for
denta car, viion car, chiopratic servces,    poatr and home health ca.
Ths employer, and in fact al of the employers and broker negotiatig discounts for tagete
servces, felt that a detaed analysis of servce nee and maket conditions was essential
before entering negotiations or lettng out a reuest for comptitive bids. They also felt that
while a lage-scale, national approach may be appropriate for some seces and some
markets, the same approach may not be suitable for other.

The HCFA as Purchaser of Tareted Medical Serves and Supplis
     Although Medicare law does not permt HCFA to engage in targeted purchaing of
     medical equipment an supplies, HCF A ha begun exloring Itcenters of excellence "          in

      a demonstraton project involving CABG.
There is curntly no provision in the Medcar law which would pet HCFA to engage in
competitive biddng or in negotiation for spifc medcal servces and supplies. Medcar
would nee a legislative change to implement selective purhasing of servces and supplies.
Repercussions from exclude providers and suppliers is liely.

Despite no speific legislative authority to implement taete purhasing, HCFA does have
the authority to conduct demonstrtion projects to study the feasibilty of seurg some ser­
vices in ways which were not contemplate when Medcar legislation was enacte One such
demonstrtion project, curntly being underten by HCFA , involves the use of "centers of
excellence " to provide some surgical proedurs. The project is just gettng underway with
selection of providers stil in proess.
      Issues for   further stud
There appe to be a nee to explore what tys of legislative changes would be         reuir
enable governent      progr
                         to engage in tagete purhasing. Studies should alo           explore
the following questions: Wht      tys of servces would be suitable for tagete   purhasing?
Where in the distrbution chai is it most advantageous to taget purchass, e. g., at the
manufactur, distrbutor or retal level?

Regardless of which seces ar tagete or how savigs ar         achieved a tagete purhasing
approach should:

              incorprate utization controls to detet   and avoid increas use    that might
              negate discount savings; and,

              produce reliable data which can be used to assess cost effectiveness and to
              negotiate futu discounts.
                                                 ."""""". '"."."""""",. .......,...............
                                                 """""'.".................
                                                 ....."......
                                                 """'"''''''''''''''''
                                                ::::::::::j::::::::::::
                                                ::::::::::::               "..,.""".
                                                ..............................................................
                                                                          ... .....,...".".......
                                                                    .....,...................
                                                ""-"""""""""'''''''-'''''''''
                                                -,..-,..........
                                                         :::::::::;::::::::::::::::::::::::::::::::::
                                                                        ::::j::::
                                                                         ::::::::                             ......    ",....
                                                                                     ''-''-'--'''''''''''''''''''''''''''
                                                                                             .......,.............
                                                                                        ::::::::::::::::::::::::::::::::::::           . ..
                                                                                                ::::j:::::::j;::::j:::::;:j:::j:::::::::::::             """-"'-"""""""""'-"""'.
                                                                                                                                   .. ::::::::::::::::::::::::!::::::
                                                                                                                              """"""'--"'"'''                         ".,..,.""".

                                                                                                                                                  .....................
                                                                                                                                                                ............. ...................
                                                                                                                                                                                    ..............,-,...
                                                                                                                                                                                    '''''               ''''''''''':::;:........
                                                                                                                                                                                                ''''''''-'''''''''      ,.. .....
                                                                                                                                                                                                                             ,..':::::
                                                                                                                   :::::::::::::::::::::::::::::::::::::;:::::::::::::::::::::::::::::::::::::::::;:::::::::::::::::::::::::::;:::::;::
                                                                                                                          ",.......
                                                                                                            '''''''''''''''""
                                                                                                                           ..........           '...."."..""""..
                                                                                                                                                   ......................................
                                                                                                                                                   "'"''''''''''''''                      ''' :::::::::::::::::::::::.
                                                                                                                                                                                                :::::;::::::::::::::.::::::::
                                                                                                                                                                                                                        ::::::::::::::::
                                                                                                                                                                                                                         ::::::




                       CHAPTR 4: Individual Case ManatJement

Brokers believe ICM improves qualit of care, increase efficiency and makes
better use of benefits for patients with catastophic or terminal diagnoses or
with chronic conditions.
Privat Sector   Case Management

Individual case management is a  prss  of diting patients, identied thugh other form
of UR, into more cost-effective mods of trtment. It is tyicaly use for catatrophic, long
tenn or high doll medca cas. It may be an integrte component of a UR progr or a
stad- alone component. Lie other UR      progr,its goal is to ensur approprite, qualty
car and prmote cost control.


Table 3 identifies some of the aras
brokers find suitable for ICM. The list
was limte to costly conditions
mentioned by more than one employer or
broker. The conditions liste ar also

                                                _11111811
                                                   II;
                                                ::I:llllliil:III;I;II;;                                                                 III;;IIII;I;IIII.                                                    1111IIIIIIIji
those in which a coordnate approach
would provide signifcantly better car to        :::::::::::::j:j::::::I,                                                       j:j:I::::::j::;::;:::::j:::::::::::::::::Ij::i::j:::::::::::::::::::;:::i:::j:::
                                                ::::::::::i:::::::II:::::;:;::8
the patient than the piecmeal approach                                ::::::::i:lq
                                                                                                       9::        jM:::::::::::::::::::::                          ::::::;::::::::I:::::::::::::::


which sometimes results under                                                               !P!!::m'!mI::::::: ::::::::::::j:::I::I:::I:IjI:::i:I:I::i::::::j::::i::::::::::::::j::,
                                                                                                                                                                              :::::::I:::::::


trtional coverage.                              illllllllllllllll:llllllllil:illli.
Individual case management is often                                                                       111                            IIII'IIIII'1I:IIIIIIIIIIIIIIIIIII,I:IIIII:IIII!IIIIIII:I:IIII!:IIIIljlllll
                                                                                                       ::::::::::::i:'
                                                                                                                  :::::i::::::::::::
referr to as " car maagement                    ::::::::::::::::::::::i1:    mt9M:                                             :::::::j:j::::i:::
                                                                                                                                               :::::I:                    ::::::I::::::::::::j::::,:::


beause it coordnate$ the mi and level                                      ::::J;!!t:' er.                          9m:'9                            :emRI!
of patient car

                                                                                                                                            tit
                      ghout the entie
course of tratment. Coordation of
services may include home health car
services, outpatient treatment or
rehabiltation and the   procurment of
durable medcal equipment or supplies.
These servces and supplies may be
delivere by networks or by    suppliers
under spial contrt.. The ICM servces may include some health benefits not usualy
covered under the health plan (such as  cert
                                        fonns of home-       car), but demed more             bas
cost effective in these speial cass.

Twenty-seven of the brokers and al of the employers we intervewed have some involvement
in ICM. They felt ICM was valuable beause in toy s envionment catastrophic cass
constitute a disproportonate share of health care expenditus. Brokers believe that the earlier
the intruction of a patient to ICM, the grater the control over the use of effcient and cost
effective services.

In its best for, ICM is a collabotive   prss    to conate a plan of car. Typicaly, the
case maager or health car consultat assigned to a patient develops, in conjunction with the
patient, famly, and health car providers, a trtmnt plan and alternatives which cover both
the hospitaization and any post- hospita car that may be   reui.     The case maager assists
the patient in mang infoned deisions about trtment alternatives and then functions as a
liaison between the patient, dotor, and insurr. Ths faciltates the development of a
ttatment plan that not only is appropriate and cost effective, but also one that meets with the
approval of the patient


      Canes for ICM are idntifed through utlizaton review technques or through a
      patient advocate.
Two strtegies ar used by brkers and employers to identi suitable candidates for ICM.
The proactive approach is broker intiate the retive is patient intite The proactive
strategy flags suitable candidates for ICM durg prospetive or concurnt utiization review.
Cadidates for ICM may be identied by diagnosis, proure, cost or intensity of car. One
broker told us that the proactive strategy enables them to identify 20- 30 potential cases a week
for their clients.

The retive strtegy     relies on the patient to voluntaly contat a "patient advocate" or
adviser, employed by the broker or the employer, for assistace on coordating the heath
plan benefits for a high-cost episo of car. The patent advocate or patient "hotle" alo
functions as an integr par of some brokers ' UR    progr     by providig patients with
infonnation on alternative medcal ttatments. In some  progr,         ths system is also used to
assist tennnaly il patients in mang deisions and      argig      for the mecal car they
nee at the end of their lie.
      Obstacles to ICM include insuffcient patient and provider eduation,     and honest
      disagreement over treatment alternative.s.

Most ICM progrs being conducte by brokers ar volunta, in that P3tients ar not
reui     to use the identied alteatives. We oftn hea that patient parcipation rates of
such volunta    progr ar     exttmely low, and that educatig patients and physicis
concerning avaiabilty of ICM and its benefits is a key obstale which nee to be overcome
for a successful ICM progr. Many brokers, employers and exprt believe patients want
and appreate help in assurg that they get the best mecal car possible, and that goo car
        ru
wi not them or their famy fiancialy. Neverteless, some of the employers we spoke
with offere these maagement servces strctly on a volunta, patient-intiate basis, lest
they appear too intrsive.



Another ICM obstale is honest disagrment over ttatment alternatives. National pratice
guidelines, outcome assessment research and changes in reimburement incentives were
mentioned by many of the peple we interviewed as elements that would playa key role in the
futue of ICM. Prtice guidelines and outcome assessment were considere to be key
developments that would enable ICM to resolve disagrments over ttatment alternatives in
the best interest of the patient.
The HCFA as Individual Case Manager
      The HCFA is capable of identifing service intensive patients, using the resources
      currently available, but lacks the authority to direct such patients into ICM.
The HCFA does not routiely conduct any ICM for Medcare beneficiaes because curnt
Medicare law prohibits steering patients to select providers. The nearst fonn of "individual
case management" in the Medcare progr is a provision which enables patients diagnosed
as tenninaly il , or their representatives, to elect hospice car in lieu of more costly care under
the regular Pan A benefit.

The HCFA sta,    with   whom we spoke, felt that ICM in the Medcare progr might not be as
effective as in the private sector, beause of the dierences in the diagnoses associated with
Medicare patients compar to those covere by private insurce. The HCFA also felt that
the curnt provisions of the statute clearly define what is covered and not covere by
Medicare and that the statute may not be flexible enough to allow Medicar to use the most
cost effective means for securg ICM servces. Some of the brokers with whom we spoke
also indicated that the Medcar population is unique, and that some of the techniques and
methods used by the private sector might not be as effective for the Medcar     progr
We leared in our discussions with HCFA that one PRO (Nebraska) is conductig a ICM pilot
study. Accordig to HCFA , this project is focusing on high cost diagnoses. The obstales
encountere thus far in this demonstration project ar:

              inabilty to taget beneficiares suitable for ICM,

              inabilty to target patients before   hospita   adssions,

              difficulty in approaching patients to encourage use of ICM,

              inabilty to document savings.

Identification of suitable patients for managed care, as early as possible, appears to be the key
to successful ICM. We examed HCFA BMAD files to determne if Medcar carers had
the abilty  tq identiy patients who might be suitable for ICM based on intensity of medcal
services. In analyzig the BMAD sample, we found that about one percent of Medicar
patients receive more than 51 medical servces annually. We believe that the data being
maintaned by the carers can be used to identify patients receivig a high volume of medical
services. Two questions must be asked with regar to these patients: 1) Are they suitable
candidates for ICM? And 2) Is the car they are receiving appropriate?
      The RCF A believes that patient advocate services would be best provided by outside
      organizations.
In our discussions with HCFA , we outlined the "patient advocate " or "patient hotlne
approach used by some employers and brokers. May companies use patient hotlines to
detennine patient interest in ICM, and to   dit  patients into specialize networks or to
targete purhasing arangements. The peple we spoke to in HCFA agr that long tenn
effons are neeed in this area. However, they felt that a patient advocate approach to DR
might be viewed as " too soft of a service" for Medcar to provide if it were volunta, or
 big brother" interferig in the practice of medcine if it were mandated. The HCFA feels that
advocate services might be better provide by outside organiztions representig the elderly
and disabled.

     Issuesfor further    stud
There appear to be suffcient potential for researhing the feasibilty of ICM for Medcar
and other federa health car program, in light of the special populations these Federal
progrs serve. What kinds of crteria wil best identiy potential candidates? Who should
perfonn the review for potential candidates, and how can ths be done most effciently? Who
should be responsible for maaging the tratment of identified patients? How can appropriate
patients be encourged to choose the ICM approach? How could a patient advocate function
within a government program?

Any ICM progr should:

                emphasize a collaborative approach among patients, physicians and payers;

                use common , wrtten guidelines or protocols;

                include a proedur for   resolving honest   disagrment over treatment
                alternatives; and,

                gather reliable data for tracking parcipation rates and cost effectiveness of the
                progr.
                                      CONCLUSION


The intent of this report was to stimulate discussion as to whether any of the approaches used
in the private setor for controllng mecal costs might be relevant to the public setor. The
purse was not to endors anyone method or prtice. Befor any such undertg,
adtional studies ar   nee      which will provide mor indepth informtion on eah method

Some of the method use by broker may be mo          reyadpte to public seto         progr
than others. The DHHS wi nee   to give cafu consideration to the legilative obstales and
adnistrtive    imaints   which curntly prvent the trsfer of these private setor cost
contrl mehanisms to the public sector. The DHH' succss in integrtig these kinds of
progrs depends on whether the necessar legislative changes can be       ma.
Overal, may private sector mechanisms for contrllng health car costs appear to have
potenti for Medcar, Medcaid and other DHHS progr includig those adstere
the Public Health Servce. Eah component should study the mechansms use by the private
setor to determe whether any ca or shoul be adpte to their        prgr.
                    ,"          ,"                                                                         pp.




                                               BIBLIOGRAPHY



 Alter Medcar PRO Review, Says GAO,                         Medicine and Health,
          December 25, 1989, Vol.
     43, No. 50, p. 3.

 Aging Panel Holds Hearng on Drg                  Prces,        This Week in Washington,         July 21, 1989.


Aquilna, David, "Data                Demands: a Dauntig Hurdle, Managed Healthcare,
     Februar 12, 1990, Vol. 2.
Bachman, Sar S., et al., "Preferr Prvider Organizations: Options for Medcar,"
           Spring 1989, pp. 24- 34.
     Inquiry,




Bacon , Kenneth H., "Fins Haven t Cut Health Costs by Using Pror-Review Progrs,
    Report Finds, The Wall Street Journal, October 19, 1989, p. B4.

Bacon, Kenneth H. White House Loks at Ways to Control Qualty, Costs of Health Car
    for Elderly, The Wall Street Journal,
 November 24 , 1989, p. A3.

 Bigger May Not be Bettr for Purhasing Groups that Overwhelm Customers, Modern
    Healthcare, May 5, 1989, pp. 36-1.

 Blue Cross Keeps Lid on High Drg                 Costs,"      Employee Benefit News,         Apri 1989,
     14- 15.

 Blues Fonn C earI!ghouse to Monitor Quality of Cae, Modern Healthcare,
     September              , 1989, p. 82.

Boland, Peter, " The Ilusion of Discounts in the Health Car Maket, Health Affairs,
    Summer 1985, pp. 93- 97.

Bolinger, Roxanne, "Doing Business with Managed Care Plans:                                Mag   the Best of 11,
     Health Policy Week,              July 17, 1989, pp. 1­



Brook , Robert et al., "Diagnosis and Treatment of Coronar Disease Comparson of
    Doctors ' Attitudes in the USA and the UK,"  The Lancet, Apri 2 , 1988, pp. 750- 753.

Brook , Robert, et al., " A Method for the Detaed                        of the Appropriateness of
                                                                   Assessment
     Medical Technologies," 
            International Journal of Technology Assessment in Health
     Care pp. 53- 63.

Chassin, Mark A Randomized Trial of Medical Quality Assurance, The Journal of the
    American Medical Association 
 August 22(29, 1986, Vol. 256, pp. 1012- 1016.
Chassin, Mark R., " Stadads of Car in Medcine,                    Inquiry,        Winter 1988, pp. 437- 453.

Chassin , Mark R., et al., " Varations in the Use of Medcal and Surgical Services by the
    Medcare Population, New England Journal of Medicine, 
       Januar 30, 1986, Vol. 314
    pp. 285- 290.

 Coming: Competition in the Medcal Supermarket,                       Changing Times, 
                Januar 1984 , p. 76.

 Discounts for Prvate Payers put Docs in ' Gry ' Legal Ara,                            Part B News,
       Volume 4
    Number 9, Apri 23, 1990, pp. 4-9.

 Doctors Ar Entering a Brave New World of Competition, Business Week July 16, 1984
     pp. 56-60.

Dubois, Roben W., M. D., et al., " Adjusted Health Death Rates: A Potential Scrn for
    Quality of Medcal Care,"    American Journal of Public Health, 
 September 1987, Vol.
    77, No. 9, pp. 1162- 1166.

Dubois, Roben W., M. D., and Roben Brook, "Assessing Clinical Decision Makng: Is the
    Ideal System Feasible?" Inquiry, Sprig 1988, pp. 59- 64.


Dubois, Roben W., M. D., et aI., "Hospita Inpatient Monaty, New England Journal
    Medicine, December 1987, pp. 1674-1680.

Dubois, Roben W., M.                   , and Roben Brook Preventable Deaths: Who, How Often , and
     Why?"        Annals of Internal Medicine,        October 1988, pp. 582- 588.

Elden, Douglas L., "Employers        and Managed Mealthcar, "                 unpublished mauscript,
     pp. 1- 13.


 Ellwoo Explains His Theory, Termnology on Outcome Method of Managig Care,
    Modern Healthcare Januar 13, 1989, pp. 30, 32.

Faltennayer, Edmund, " Medical Ca'          s Next Revolution,"              Fortne,            October 10, 1988,
        126-127.

Feldman, Amy, "Leading UR Fir Seeks New Chalenge with Major PPO Acquisition
     Contract Care,       July 1988, pp. 6­



Field, Marlyn 1., and Bradford Gry, " Should We Regulate Utilization Management?"
                    Winter 1989, pp. 103- 112.
     Health Affairs, 





Fink , Arlene, et aI.
                   Consensus Methods: Characteristics and Guidelines for Use,
     American Journal of Public Health September 1984, Vol. 74 , pp. 979-983.
Fink, Arlene, et al., " Suffciency of Clinical Literatur                      on the         Appropriate Uses of Six
     Medcal and Surcal                    Procedures,   The Western Journal Medicine,                    1987, pp. 609- 614.

Fox, Leslie Ann , and Sandr Meyers, " Ambulatory Surgery Records: Is Infonnation
     Solicited from Patients Adequate?"                 Echo,      Sprig/Summer, pp. 14- 15.

Gabel, Jon , et al., "Employer- Sponsore Health Insurce                             in America,         Health Affairs,
     Summer 1989, pp. 116-128.

 Georgia Physicians Criticize Medcar,                     Medicine and Health,
                   November 20, 1989, Vol.
    43, No. 46, p. 3.

 GHAA Study Tracks Patterns of Change in HMOs                                Employee Benefit News,
          Apri1989,
     44.

Glenn , Karn J., " Medcal Effectiveness Initiatives, Medicine and Health Perspectives,
    May 22, 1989.

Greene, Jay, and Mar Wagner, "A Volume of Options in Grup Puchasing, Modern
    Healthcare,  October 13, 1989, pp. 26-38.

 HCFA Hangs Tight to Georgia s Medcal Review Pilot,                                     Part B News,
    Volume 4
     Number 7, March 26, 1990, p. 1.

 HMO Enrollees Have 50% Fewer Hospita Days-Study, Modern Healthcare,
   May 19, 1989, p. 59.

Hillman , Alan L., M. D., M. A., " Special Report - Financial Incentives fur Physicians in
     HMOs. Is There a Conflct ofInterest?" 
 The New England Journal of Medicine,
     December 31, 1987, pp. 1743- 1748.

Johnson, Richard E., "Establishing a Successful Approach to Health Plan Cost
    Management, Employee Benefit News, 
    Apri1989, pp. 27- 28, 34.

Kahn , Katherine L., et al., " The Effect of Comorbidity on Appropriateness Ratigs for Two
    Gastrointestinal Predures, Journal of Clinical Epidemiology,
     Vol. 41, No.
     June 25, 1987, pp. 115- 122.


Kahn , Katherine, et al., " Measuring the Clinical Appropriateness of the Use of a
    Procedure, Medical Care, 
    April 1988, Vol. 26, No. 4, pp. 415-422.

Kenkel , Paul, " Cost Management Aims at Workers Compensation Modern Healthcare,
     July 7, 1989, pp. 80- 81.
                    , "




Kenkel, Paul J., "Health Prferr of Mid-America, Chicago, Modern Healthcare,
      June 23, 1989, p. 40.

Kenkel, Paul J., " Managed- Car Doctors Fees Var- Study, Modern Healthcare,
      September 22, 1989, p. 5.

Kenkel , Paul J., "Plans Avoid Managed- Ca Middemen, Modern Healthcare,
    May 26, 1989, pp. 92-93.

Kosecoff, Jacqueline, et al., "The Appropriateness of Using a Medcal Procedure, Medical
    Care,  March 1987, Vol. 25, No.       pp. 196-200.     3,
Kosecoff, Jacqueline, et al., "Effects of the National Institutes of Health Consensus
    Development            Prgr
                              on Physician Practice, The Journal of the American Medical
    Association , November 20, 1987, Vol. 258, pp. 2708- 2713.

Kosecoff, Jacqueline, et al., "Obtaning Clinical Data on the Appropriateness of Medical
    Care in Community Prtice, The Journal of the American Medical Association,
    November 13, 1987, Vol. 258, pp. 2538-2542.

Kosterlitz, Julie, " Bottom-Line Pain                       National Journal,
            September 9, 1989, pp. 2201- 2205.

Kramon , Glenn, "Four Health Ca Vigilantes,                                 The New York Times, 
             September 24 , 1989,
    Section ill, p. 1.

Kramon, Glenn, "Takng a Scalpel to Health Costs,                                   The New York Times, 
          Januar 8, 1989,
    Section ill p. 1.

Kramon, Glenn, "When Companies Hi Own Doctors,                                            New York Times, 
       July 11, 1989,
     Section   N,   p. 2.



Lam, Richard D., "Saving a Few, Sacrficing Many-at Grat Cost,                                                  The New York Times,
     August 2, 1989, Section I, p. 23.

Levit, Katharne R., et al., "Heal                   Spending and Abilty to Pay: Business, Individuals, and
     Government,           Health Care Financing Review,                          Sprig 1989, pp. 1- 11.

McClure, Walter        When You Offer People a Fre Lunch , They Don t Eat at McDonald'
     They Go to the Ritz.              Across the Board,
              September 1983, pp. 46-49.

McGraw Hill Review Resources Sourcebook of Private Independent UR Companies,
   undated.

Medicare- Approved CABO Centers Narwed to 10,                                          Part B News, 
         Volume 4 , Number 2
    Januar 15, 1990, pp. 4­
Merrck, Nancy L., et al., "Derivation of Clinical Indications for Caotid Endaerectomy by
    an Expen Panel                                          Vol. 77, No. 2, Februar 1987,
                               American Journal of Public Health,


      pp. 187- 190.


Merrck, Nancy, et al., "Use of Caotid Endaretomy in Five California Veteras
    Admnistrtion Medcal Centers, The Journal of the American Medical Association,
    November 14 , 1986, Vol. 256, No. 18, pp. 2513-2535.

Morford, Thomas G., "Fedral Effons to Improve                              Peer Review Organiztions,            Health
      Affairs,   Summer 1989, pp. 175- 178.

National Center for Health Services Research and Health Ca Technology Assessment,
      DHHS        Secta Sullvan Announces NCHSR Grants Totang $4 Millon for Patient
     Outcome Research Assessment Teams, Research Activities,
 September 11, 1989
     (special release).

National Center for Health Services Research and Health Ca Technology Assessment,
    DNR Order Differences Found for Patients with Comparble Prgnoses, Diferent
     Diseases, Research Activities, 
 Deember 1989, No. 124, pp. 4­

National Center for Health Servces and Health Ca Technology Assessment, "Utization
     Review Reduces Hospita Inpatient Use and Expenditues, Research Activities,
     September 1989, No. 121 , p. 3.

Offce of Technology Assessment, "Physician Payment Under the Medcare Prgram:
      Problems and Changing Context, Paymentfor Physician Services: Strategiesfor
      Medicare, 1986, Chapter 2 , pp. 39- 77.

Park , Rolla Edwar, et al., "Physician Ratings of Appropriate Indications for Six Medcal
      and Surgical Predures,                                        Vol.76, No. 7, July
                                             American Journal of Public Health,



      1986, pp. 766-772.

 PPOs: Insurers, Employers Get More Involved, Medicine and Health Perspectives,
   December 5, 1988.

 PROs Ease Pradmssion Review for Eveninglight Surgeries,"                                     Part B News,
      Volume 4
    Number 9, Apri 23, 1990, pp. 3-4.

 Review Resources: Directory of a Newly                          Matue Industr,"          Utilzation Review.


Rice, Thomas, et al., " The State of PPOs: Results from A National Surey,"                                    Health Affairs,
     Winter 1985, pp. 25- 39.

Robichaux, Mark, " Soarng Health- Car                        Costs Spur            Entrpreneural   Fever,"    The Wall Street
      Journal,      September 6, 1989, p. B2.
Roper, Willam L., M. D., "Perspetives on Physician Payment                     Refonn,"      New England
                          September 29, 1988, pp. 865- 867.
      Journal of Medicine, 





Rosko, Michael D., " A Comparson of Hospita Perfonnance under the Panal- Payer
    Medcare PPS and State All-Payer Rate- Settng Systems," Inquiry, Sprig 1989, pp.
    48- 61.

Ruffenach, Glenn, " Denials        of Medcal Claims Prvoke a Legal                Backlash,     The Wall Street
      Journal,        Februar 13, 1990, pp. Bl, B4.
Rundle, Rhonda, "Hospitas Groups Try to Pull Off Cost Watchdogs,"                          The Wall Street
    Journal, August 16, 1989, pp. Bl, B6.

Scanlon, Jack , and Neil Austin, " Bringig HMOs in Line with Cost Management Goals,"
      Business and Health, 
            December 1987, pp. 12- 17.

Schiffman, James R., "PPO Addess Overuse of Varous Procedurs, The Wall Stree
     Journal, May 30, 1989, p. BI.

Schiffman, James R., "Testing a Plan, Medicare Pains Georga Doctors, The Wall Street
    Journal, December 29, 1990, pp. Bl, B3.

 Severity-of - llness,"           Part B News,      p. 6.



Shalowitz, Debora, " Companies Adjusting Health Benefits: GAO,"                           Business Insurance,
    Februar 20, 1989, p. 82.

Shellenbarger, Sue, " As HMO Prmiums Soar, Employers Sour On the Plans and Check
     Out Alternatives, The Wall Street Journal, 
 Februar 27, 1990. pp. Bl , B9.

Sisk , Faye A., Ph.D., "Lab Work for HMOs: Negotiating for Prfit, Avoiding Traps,"
      Medical Laboratory Observer November 1987, pp. 27- 30.

Swobo, Fra, "Managing to Rein In the Expense of Health Cae,"                               The Washington Post,
   Februar 11, 1990, p. HI.
Tokarski, Cathy, " Utilization               Review Not Turing Up Much Long- Tenn Gain,"            Modern
      Healthcare,         December 29, 1989, p. 30.

Traska, Mara R., " Medicaid HMOs: Endangered                      Species,"   Medicine and Health
                  May 8, 1989.
      Perspectives,




   S. Deparment of Health and Human Services, Offce of Inspector Genera, Offce of
                                Beneficiary Satisfaction with Georgia s Medicare Carrier,
      Evaluation and Inspections, 


     OEI- 04- 90- 01050, Februar 1990.
                   , "




Vibbert, Spencer, " Is Utilization Review Paying                                                    Februar 1989,
       pp. 3-   8.                                                    Off" Business and   Health,




Wendling, Wayne, and Jack Scanlon, " Seeking Cost Controls with Health Car                            Data,
   Business and Health, 
 May 1988, pp. 34- 37.

Whitmore, Julie, "Despite Minor Downtur, Moo Reviewer s Signs Goo, Crain
    Chicago Business, 
 Vol. 12, No. 10, Week of March 6-12 1989.

Wiener, Janet Ochs, "Effectiveness: Another Name for Cost Control?"                             Medicine and
    Health Perspectives, 
   October 9, 1989.

Winslow, Constace Monr, et al., "The Appropriateness of Perfonnng Coronar Anery
    Bypass Surgery," 
 The Journal of the American Medical Association July 22/29, 1988,
    Vol. 260, No. , pp. 505- 509.

Winslow, Ron Hospitals Rush to Transplant Organs - Bid for Prestige Triggers Debate on
    Perfonnance," The Wall Street Journal, August 29, 1989, p. B1.

Winslow, Ron, "Pentagon Sets Up a Pilot To Conquer High Costs, The Wall Street
    Journal, Februar 28, 1990, p. B1.

Winslow, Ron, "Rationing Cae,                 The Wall Street Journal,
        November 13, 19 9, p. R24.

Artur Young    & Co., " CAPP Cae in Medcar Demonstration Project, PPO Postscript,
      April 1989, Vol. 7, No.
